Com
I

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No. 20-659
LARRY THOMPSON,
Petitioner,

*

COCKLE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

POLICE OFFICER PAGIEL CLARK,

SHIELD #28472,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE INSTITUTE
FOR JUSTICE AS AMICUS CURIAE SUPPORTING PETITIONER in the above entitled case

complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New

Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains

5548 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 11th day of June, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

Qudeaw-h, Gh Le

 

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS 9.
My Comm. Exp. September 5, 2023

Notary Public

Affiant 41006
